December 1, 2020
By Electronic Filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Polk County, Wisconsin v. J.K.J., et al., No. 20-427

Dear Mr. Harris:
We represent the respondents, J.K.J. and M.J.J., in the above-referenced
matter. The petition for a writ of certiorari was filed on September 29, 2020.
Respondents’ brief in opposition is currently due, after one extension, on December
2, 2020. Respondents respectfully request, under Rules 15.3 and 30.4, a further
extension of seven days, up to and including December 9, 2020, to file their brief in
opposition. Petitioner consents to the requested extension.
The extension is warranted in this case both because counsel for respondents
have been occupied with time-sensitive briefing in other federal matters, and
because of additional burdens imposed by the ongoing Covid-19 pandemic and
related closures and restrictions. An extension of seven days will permit counsel for
respondents to complete a comprehensive response that fully addresses the issues
raised by petitioner and will aid the Court’s efficient resolution of this matter.
We have concurrently served a copy of this letter upon counsel for the
petitioner. Thank you for your consideration of this request.
Respectfully submitted,

Sarah C. Grady
cc:

Erin E. Murphy & Lauren N. Beebe, Kirkland & Ellis LLP; Paul D. Cranley,
Husch Blackwell LLP; Andrew A. Jones, Hansen Reynolds LLP (via email
and overnight mail)

